APPENDIX A: Opinion, Richardson v. Gomez, appeal no.20-6953 (4th cir. Dec.22, 2020).

FILED: December 22, 2020
UNITED STATES COURT OF APPEALS.
FOR THE FOURTH CIRCUIT

No. 20-6953
(3:19-cv-00812-HEH)

HENRY PAUL RICHARDSON
Petitioner - Appellant
v.
CHRISTOPHER GOMEZ, Warden
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6953
HENRY PAUL RICHARDSON,
Petitioner - Appellant,
v.
CHRISTOPHER GOMEZ, Warden,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Richmond. Henry E. Hudson, Senior District Judge. (3:19-cv-00812-HEH)
Submitted: December 17, 2020

Decided: December 22, 2020

Before THACKER, HARRIS, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Henry Paul Richardson, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Heniy Paul Richardson, a federal prisoner, appeals the district court’s order denying
relief on his 28 U.S.C. § 2241 petition in which he sought to challenge his convictions by
way of the savings clause in 28 U.S.C. § 2255. Pursuant to § 2255(e), a prisoner may
challenge his convictions in a traditional writ of habeas corpus pursuant to § 2241 if a
§ 2255 motion would be inadequate or ineffective to test the legality of his detention.
Section 2255 is inadequate and ineffective to test the legality of a conviction when:
(1) at the time of conviction, settled law of this circuit or the Supreme Court established
the legality of the conviction; (2) subsequent to the prisoner’s direct appeal and first § 2255
motion, the substantive law changed such that the conduct of which the prisoner was
convicted is deemed not to be criminal; and (3) the prisoner cannot satisfy the gatekeeping
provisions of § 2255 because the new rule is not one of constitutional law. In re Jones,
T26 F73“d 3287333^3AT4flTCiOOW):
We have reviewed the record and find no reversible error. Accordingly, we affirm
for the reasons stated by the district court. Richardson v. Gomez, No. 3:19-cv-00812-HEH
(E.D. Va. Apr. 30, 2020). We dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

2

APPENDIX B: Memorandum and Order denying Petition for a writ of habeas corpus Pursuant to 28 U.S.C. 2241
Richardson v. Gomez, Case no. 3:19-cv-812, E.D. VA, April 30, 2020.

i-

Case 3:19-cv-00812-HEH Document 6 Filed 04/30/20 Page 1 of 5 PagelD# 72

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
HENRY P. RICHARDSON,
Petitioner,
v.
CHRISTOPHER GOMEZ,
Respondent.

)
)
)
)
)
)
)
)

Civil Action No. 3:19CV812-HEH

MEMORANDUM OPINION
(Dismissing 28 U.S.C. § 2241 for Want of Jurisdiction)
Henry P. Richardson, a federal inmate proceeding pro se, submitted a 28 U.S.C.
§ 22411 petition (“2241 Petition,” ECF No. I).2 This Court convicted Richardson of
conspiracy to distribute heroin, possession of a firearm in furtherance of a drug
trafficking offense, and possession of a firearm in furtherance of a drug trafficking

i

That statute provides, in pertinent part:
(c) The writ of habeas corpus shall not extend to a prisoner unless—
(1) He is in custody under or by color of the authority of the United States or is
committed for trial before some court thereof; or
(2) He is in custody for an act done or omitted in pursuance of an Act of
Congress, or an order, process, judgment or decree of a court or judge of the
United States; or
(3) He is in custody in violation of the Constitution or laws or treaties of the
United States....

28 U.S.C. § 2241 (c)( 1 )-(3).
2 The Court notes that Richardson is currently incarcerated in the Bureau of Prisons’ facility in
Glenville, West Virginia, therefore, the § 2241 petition should have been filed in the West
Virginia federal court. Nevertheless, because Richardson’s petition is readily dismissed for want
of jurisdiction, the interests of judicial economy warrant resolving the action at this juncture
without a transfer.

Case 3:19-cv-00812-HEH Document 6 Filed 04/30/20 Page 2 of 5 PagelD# 73

offense causing death of another. Since that date, Petitioner has filed a variety of
frivolous and vexatious motions attempting to challenge his conviction. In his § 2241
Petition, Richardson once again contends that he is actually innocent. As the Court has
explained several times to Richardson, “[t]he Court cannot consider these arguments or a
successive § 2255 motion unless [he] obtains permission from the Fourth Circuit.”3 For
the reasons stated below, the action will be dismissed for want of jurisdiction.
A.

Motions under 28 U.S.C. § 2255 Compared to Petitions under 28
U.S.C. § 2241

A motion pursuant to 28 U.S.C. § 2255 provides the primary means of collateral
attack on the imposition of a federal conviction and sentence and must be filed with the
sentencing court. See Pack v. Yusuff, 218 F.3d 448, 451 (5th Cir. 2000) (quoting Cox v.
Warden, Fed. Det. Ctr., 911 F.2d 1111, 1113 (5th Cir. 1990)). The Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA) restricted the jurisdiction of the district
courts to hear second or successive applications for federal habeas corpus relief by
prisoners attacking the validity of their convictions and sentences by establishing a
“‘gatekeeping’ mechanism.” Felkerv. Turpin, 518 U.S. 651, 657 (1996). Specifically,
“[bjefore a second or successive application permitted by this section is filed in the
district court, the applicant shall move in the appropriate court of appeals for an order
authorizing the district court to consider the application.” 28 U.S.C. § 2244(b)(3)(A).4

3 See, e.g., United States v. Richardson, No. 3:06CR106-HEH (E.D. Va.), ECF Nos. 211, 226,
253.
4 An inmate may not file a second or successive § 2255 motion, unless a panel of the appropriate
Court of Appeals certifies that the motion contains:

2

Case 3:19-cv-00812-HEH Document 6 Filed 04/30/20 Page 3 of 5 PagelD# 74

A federal inmate may not proceed under 28 U.S.C. § 2241 unless he or she
demonstrates that the remedy afforded by 28 U.S.C. § 2255 “is inadequate or ineffective
to test the legality of his detention.” 28 U.S.C. § 2255(e).5 For example, “attacks on the
execution of a sentence are properly raised in a § 2241 petition.” In re Vial, 115 F.3d
1192, 1194 n.5 (4th Cir. 1997) (citing Bradshaw v. Story, 86 F.3d 164, 166 (10th Cir.
1996); Hanahan v. Luther, 693 F.2d 629, 632 n.l (7th Cir. 1982)). Nevertheless, the
Fourth Circuit has emphasized that “the remedy afforded by § 2255 is not rendered
inadequate or ineffective merely because an individual has been unable to obtain relief
under that provision or because an individual is procedurally barred from filing a § 2255
motion.” Id. (internal citations omitted).
The Fourth Circuit has stressed that an inmate may proceed under § 2241 to
challenge his conviction “in only very limited circumstances.” United States v. Poole,
531 F.3d 263, 269 (4th Cir. 2008) (citation omitted) (internal quotation marks omitted).
The “controlling test,” id., in the Fourth Circuit is as follows:
[Section] 2255 is inadequate and ineffective to test the legality of a
conviction when: (1) at the time of conviction, settled law of this circuit or
(1) newly discovered evidence that, if proven and viewed in light of the evidence
as a whole, would be sufficient to establish by clear and convincing evidence that
no reasonable factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable.
28 U.S.C. § 2255(h).
5 «

This ‘inadequate and ineffective’ exception is known as the ‘savings clause’ to [the]
limitations imposed by § 2255.” Wilson v. Wilson, No. 1:1 lcv645 (TSE/TCB), 2012
WL 1245671, at *3 (E:D. Va. Apr. 12, 2012) (quoting/n re Jones, 226 F.3d 328, 333 (4th Cir.
2000)).
3

Case 3:19-cv-00812-HEH Document 6 Filed 04/30/20 Page 4 of 5 PagelD# 75

the Supreme Court established the legality of the conviction; (2) subsequent
to the prisoner’s direct appeal and first § 2255 motion, the substantive law
changed such that the conduct of which the prisoner was convicted is deemed
not to be criminal; and (3) the prisoner cannot satisfy the gatekeeping
provisions of § 2255 because the new rule is not one of constitutional law.
In re Jones, 226 F.3d 328, 333-34 (4th Cir. 2000) (emphasis added).6 The Fourth Circuit
formulated this test to provide a remedy for the “fundamental defect presented by a
situation in which an individual is incarceratedfor conduct that is not criminal but,
through no fault of his [or her] own, [he or she] has no source of redress.” Id. at 333 n.3
(emphasis added).
B.

Analysis of Richardson’s 28 U.S.C. § 2241 Petition

Richardson fails to satisfy the second prong of In re Jones.

See id. at 334.

Specifically, Richardson fails to demonstrate that “subsequent to [his] direct appeal and
[his] first § 2255 motion, the substantive law changed such that the conduct of which [he]
was convicted is deemed not to be criminal.’’'’ Id. (emphasis added). The conduct of which
Richardson stands convicted, conspiring to distribute heroin, possessing a firearm in

6 The Court recognizes that the Fourth Circuit recently expanded the longstanding
“controlling test,” to allow a petitioner to challenge his sentence as follows:
[W]e conclude that § 2255 is inadequate and ineffective to test the legality of a
sentence when: (1) at the time of sentencing, settled law of this circuit or the
Supreme Court established the legality of the sentence; (2) subsequent to the
prisoner’s direct appeal and first § 2255 motion, the aforementioned settled
substantive law changed and was deemed to apply retroactively on collateral
review; (3) the prisoner is unable to meet the gatekeeping provisions of
§ 2255(h)(2) for second or successive motions; and (4) due to this retroactive
change, the sentence now presents an error sufficiently grave to be deemed a
fundamental defect.
United States v. Wheeler, 886 F.3d 415,429 (4th Cir. 2018) (citations omitted), cert, denied, 138
S. Ct. 1318 (2019). However, Wheeler is inapplicable here because Richardson is not
challenging his sentence.

4

Case 3:19-cv-00812-HEH Document 6 Filed 04/30/20 Page 5 of 5 PagelD# 76

furtherance of a drug trafficking offense, and possessing a firearm in furtherance of a drug
trafficking offense causing death of another, remains criminal. Accordingly, Richardson’s
28 U.S.C. § 2241 Petition will be dismissed without prejudice for want of jurisdiction.
An appropriate Order will accompany this Memorandum Opinion.

Date: /ipr*J 30 goao
Richmond, Virginia

/s/
HENRY E. HUDSON
SENIOR UNITED STATES DISTRICT JUDGE

5

Case3:19-cv-00812-HEH Document? Filed 04/30/20 Page 1 of 1 PagelD#77

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Richmond Division
HENRY P. RICHARDSON,
Petitioner,

)
)
)

)

v.

CHRISTOPHER GOMEZ,
Respondent.

Civil Action No. 3:19CV812-HEH

)
)
)
)

ORDER
(Dismissing 28 U.S.C. § 2241 for Want Of Jurisdiction)
In accordance with the accompanying Memorandum Opinion, it is hereby
ORDERED that the 28 U.S.C. § 2241 Petition is DISMISSED WITHOUT PREJUDICE
FOR WANT OF JURISDICTION.
Should Richardson desire to appeal, a written notice of appeal must be filed with
the Clerk of the Court within sixty (60) days of the date of entry hereof. Failure to file a
notice of appeal within that period may result in the loss of the ability to appeal.
The Clerk is DIRECTED to send a copy of the Memorandum Opinion and Order
to Richardson.
It is so ORDERED.
/s/

HENRY E. HUDSON
SENIOR UNITED STATES DISTRICT JUDGE
Date:
2of aaa.o
Richmond, Virginia

I

APPENDIX C: Order denying petition for rehearing en banc, Richardson v. Gomez, appeal no.20-6953
(4th cir. march 1, 2021); and the mandate of judgment issued on March 9, 2021.

FILED: March 1,2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6953
(3:19-cv-00812-HEH)

HENRY PAUL RICHARDSON
Petitioner - Appellant
v.
CHRISTOPHER GOMEZ, Warden
Respondent - Appellee

ORDER

The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Upon consideration of the motion to exceed length limitations for the
petition for rehearing and rehearing en banc, the court grants the motion.
Entered at the direction of the panel: Judge Thacker, Judge Harris, and Judge
Quattlebaum.
For the Court
/s/Patricia S. Connor, Clerk

FILED: February 1, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6953
(3:19-cv-00812-HEH)

HENRY PAUL RICHARDSON
Petitioner - Appellant
Y.

CHRISTOPHER GOMEZ, Warden
Respondent - Appellee

STAY OF MANDATE UNDER
FED. R. APP. P. 41(d)(1)
Under Fed. R. App. P. 41(d)(1), the timely filing of a petition for rehearing
or rehearing en banc or the timely filing of a motion to stay the mandate stays the
mandate until the court has ruled on the petition for rehearing or rehearing en banc
or motion to stay. In accordance with Rule 41(d)(1), the mandate is stayed pending
further order of this court.
/s/Patricia S. Connor, Clerk

FILED: March 9, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6953
(3:19-cv-00812-HEH)

HENRY PAUL RICHARDSON
Petitioner - Appellant
v.
CHRISTOPHER GOMEZ, Warden
Respondent - Appellee

MANDATE
The judgment of this court, entered December 22, 2020, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

/s/Patricia S. Connor, Clerk

APPENDIX D: Copy of the following Sworn Affidavits: (1) Private investigator Mr. Alfred C Brown; (2) Slyvester T.
Washington; (3) Andrew Grant; (4) Natilia Nikki Johnson; and (5) Neurologist and medical professor Elkhonon
Goldberg.

Affidavit of Alfred C. Brown

I, Alfred C. Brown, do swear aad affirm that the following information is true and correct to the best of
my knowledge and belief.
1.

I, Alfred C. Brown, am a Private Investigator with Insight Investigations located at 7206 Hull
Street Road, Suite 210 North Chesterfield, Virginia 23235. No promise or agreement has been made in
exchange for this statement, and I do not expect any in the future. I am willing to testify before any
court if called upon concerning such matters stated herein.
2.

I have been retained to conduct an investigation in the case of the United States v. Henry Paul
Richardson, Criminal Case no: 3:06 cr-106 E.D. VA June. 26, 2005. This investigation included conducting interviews with prior government witnesses, and developing potential new witnesses to shed
light on Henry P. Richardson’s innocence, the police and .the prosecutorial misconduct that was
concealed on this case and recently revealed by a key government witness.
3.

As part of my investigation, I conducted several interviews with prior key government witness
Sylvester T. Washington during August 2012, September 2013 and in March 2014 at his residence. I
secured an Affidavit from Sylvester T. Washington based upon what was revealed to me during the
investigation process and interviews with Mr. Washington (See Attachment Affidavit of Sylvester T.
Washington.)
4.

According to Mr. Washington on the night of February 14, 2006 a shooting occurred in Gilpin
Court near the comer West'CoUtt Street^and^SainrPaurStreet at wMclrtime he was shofand"Freeman ~
Brown was killed. Mr. Washington lapsed into a coma for a week.
. 5.

According to Mr. Washington, on February 21, 2006 Richmond Police Detective David Burt
visited him at the hospital which at that time Detective Burt asked him some questions pertaining to him
being shot. Washington stated that Detective Burt showed him some pictures and asked him did he
know any of the people shown in the pictures. Mr. Washington stated that he informed the detective that
he recognized the guys in the pictures as being from Jackson Ward area. Then Detective Burt showed
Mr. Washington a picture of Henry Richardson a.k.a. Packer and asked if he knew him, which
Washington stated “yeah”. According to Mr. Washington, Detective Burt told him to initial and circle
the picture of Henry Richardson Mr. Washington stated that during that hospital encounter on February
21, 2006 with detective Burt, he was never asked to circle or initial the picture of the person who
allegedly shot him and Freeman Brown Mr.- Washington stated that he did not initial or circle the
picture Henry Richardson shown to him by Detective Burt as the person involved with the shooting on
February 21, 2006 in which he shot and freeman Brown Killed. According to Mr. Washington, he
signed the picture of Henry Richardson as only as knowing him when asked by Detective Burt and
nothing further.

6.
According to Mr. Washington, on February 21, 2006, when he was visited at MCV Hospital by
Detective Burt, he was so heavily medicated, and out of it that he didn’t even remember what Detective
Burt was talking about during such visit.
According to Mr. Washington, he was arrested for a probation violation in March 2006. That s
7.
approached by Richmond Police Detective David Burt, Richmond Police Officer Sandy
when he was
the one that arrested him), F.B.I. Agent Gary Jennings (who put his wheelchairin
Ledbetter (who was
' the Van during the time that he arrested) and he was then taken to the Richmond City Jail visitation.
During such interview Mr. Washington alleged that Richmond Police Officer Sand Ledbetter stated to
him that District Attorney Roderick very pissed at him, real pissed at him, referring to when Mr.
Washington testified in the General District Court before Judge Cheeks on March 13, 2006 that Henry
Richardson wasn’t the person that shot him.
8.
According to Mr. Washington, at the time of his arrest for probation violation on March 2006;
Richmond Police Officer Sandy Ledbetter and Richmond Detective Burt informed him Henry
Richardson a.k.a. Packer was the person responsible for shooting him and Freeman Brown. Mr.
Washington stated that these Richmond Police Officers also informed him that Mr. Richardson had
confessed to shooting him and Freeman Brown, and that Mr. Richardson was around Jackson Ward
bragging about it. Mr. Washington stated that Detective Burt and Officer Ledbetter continued to tell
him the story of how he was shot and that Henry Richardson was the shooter.
9
According to Mr. Washington, he stated the he sat there quietly and listened. Mr. Washington
then told Detective Burt and Officer Ledbetter that Henry Richardson-wasn’t the person-thabwas------ponsible for shooting him. The police continued to tell him that Packer was the one that shot him.
res
Washington stated that Detective Burt told him that he faced seven years for probation violation.
Mr.
stated that he told Detective Burt that he had not done anything to violate his probation
Mr. Washington
and that he was supposedly ready to come off probation. Mr. Washington stated that Detective Burt
then alleged that they found cocaine in Ms pockets during the night he was shot on February 14, 2006
and they were withholding the charges.
According to Mr. Washington, in March 2006 or so he was approached by Richmond Police
10.
officer Sandy Ledbetter and she told him that they were going to charge him with murder and robbery
stemming from 1992 that occurred in Jackson Ward on West Charity Street.
11.
According to Mr. Washington, he stated that he was never formally charged or prosecuted by the
Richmond Police Department with the 1992 murder and robbery, nor was he charged or prosecuted for
forging documents, or cocaine possession: Mr. Washington stated that these charges were withheld by
the Richmond Police in an effort to get him to cooperate in the case against Henry Richardson.

According to Mr. Washington, during the time of his arrest around March 2006, for probation
. 12.
violation, F.B.I. Agent Gary Jennings told Mr. Washington that they arrested him for his protection and
safety. Mr. Washington then told the police that his wife and kids were still in Gilpin Court. Shortly
thereafter, he was released from his probation violation in which they re-located him and his family to
Southside of Richmond.
Mr. Washington stated that F.Bi. Agent Jennings gave him $2000.00 in cash to help him move.
13.
Agent Jennings had him sign some piece of paper.
14.
According to Mir. Washington, Richmond Police Detective Burt and Richmond Police Officer
Ledbetter told him if Henry Richardson found out that he was talking to the police that he would kill his
family Also, Washington mentioned that Detective David Burt and Officer Ledbetter informed him that
Richardson had committed a murder in Mosby court and that a guy was shot to death and his son was in
the vehicle with him. Mr. Washington stated that Detective Burt felt like Mr. Richardson had gotten
away with murder and they wanted to put him away for the rest of his life.
According to Mr. Washington, oh or about April 2006, he met with Richmond Police Detective
15.
David Burt, F.B.I. Agent Gary Jennings and Prosecutor Roderick Young at the Federal Court Building
in the case against Henry Richardson in which the Federal Grand Jury was meeting. Mr. Washington
stated that he was informed by Richmond Detective David Burt that they needed him to go before the
Grand Jury. Mr. Washington stated that is when he told them he didn’t know what to say. According to
Washington Detective Burt told him that “We already told you what to say. Henry Richardson aka
‘Packer” is around there bragging that he shot you. He confessed to the shooting”.
According to Mr. Washington, he was coerced, and pressed by Richmond Police Officer Sandy
16.
Ledbetter, Detective David Burt, F.B.I. Agent Gary Jennings and Prosecutor Roderick Young into
saying Henry Richardson was the shooter when he was shot and Freeman Brown was killed on February
14,2006.
.
Mr. Washington informed me that the three, people he saw on that night in the van were dark
17.
skinned and that Mr. Richardson was light skinned. He said none of the shooters was Mr. Richardson.
18.

Mr. Washington also in formed me that he did purchase drugs in the past from Mr. Richardson.

19.
According to Mr. Washington, he stated that he and Andre Seward were friends and had been
hanging together every day up until Mr. Seward was killed in August 2012.
The Information and facts contained herein are true and correct.

STATE OF VIRGINIA:
CITY/COUNTY OF__,

to wit:

Sworn and subscribed before me in my jurisdiction aforesaid the
2014
My Commission

Reg#

)l

day of

7
Notary Public

Affidavit of Sylvester Tyres Washington

I, Sylvester T. Washington, do swear and affirm that the following information is true and
correct to the best of my knowledge and belief.
1. I, Sylvester T. Washington currently reside at the 1347 Minefee Street Road, Richmond.
Virginia 23224. No promises or agreements have been made in exchange for this
statement, and I do not expect any in the future.
"
2. I want to tell the truth regarding my participation in the. case United States of America v.
Henry Paul Richardson that happened in May of 2006.
3. At the time I was living on 913 South Meadow Street, Richmond Virginia.
4. I knew Mr. Henry Paul Richardson a.k.a. ‘Tacker” because he was a familiar face in
Gilpin Court and he knew the people of Jackson Ward.
5. I was wounded in the shooting that occurred on February 14, 2006, in which Freeman
Brown was killed.
g;—I was awakerredinrtheriespitahbytworietectives, Detective-David-E—Burt-and-his-partner.
They began to question me, “you know this dude right here?” They were showing me an
array of photographs, but he was pointing to one particular photograph. I said “yeah.”
They had me circle the photograph and initial it
7. When.I was questioned by Judge Cheeks as to whether or not I knew who- shot me, he had

pointed to Mr. Richardson, I said “no.” Judge Cheeks said he was going to dismiss the
case.
8. The next morning, I was in bed and awakened by Special Agent Gary F. Jennings, Sandy

Leadbetter, a large Black police officer and a Caucasian police officer that resembled
Chuck Norris. .Sandy Leadbetter stated “District Attorney Roderick Young is pissed at
you... .real pissed at you:” They rearrested me and took me to the Richmond City J ail.
9.

I was taken to a visitation room in the Richmond City Jail where Detective David E. Burt
and his partner, Special Agent Gary F. Jennings, Donna Mixner and an unknown female
questioned me and stated that they wanted to keep me in j ail for my safety. Gary J ennings

stated to me that the charges they brought against me were to keep me off the streetsand
to protect me and my family. The charges were trespassing in Jackson, forging a public
document and a probation violation!
10. Law enforcement was attempting to intimidate me and wanted my'family to be afraid of
Mr. Richardson. Accordingfo them, Mr. Richardson committed a murder in Mosby
Court. A guy was shot to death while his son was in the vehicle with him. They felt as
' though Mr. Richardson had gotten away with that murder.
11. They asked me if I had ever bought drugs from Mr. Richardson and I said “yes”.

12. Special Agent Gary Jennings gave me $2000.00 in cash to help me move away from the
Gilpin Court apartment complex. My family and I moved from Gilpin Court in Jackson
' Ward to Southside where we live now. ■ I was given a paper to sign that said I accepted the
money. I didn’t get a copy of that paper. This was done at their office and it was done at
some point before court.
13.1 was coerced into saying that the shooter was Mr. Henry Richardson when, in fact the
shooters were three dark skinned men and Mr. Henry Richardson is fight skinned.
14. The driver was also dark skinned and none of them were Mr. Henry Paul Richardson.
The information and facts contained herein are true and correct.

Sylvester T. Washington
State of
.'AfiltjTCounty of

lA

. to wit:
•; ■,.

• .• .

•fir;

Sworn and subscribed before me in my jurisdiction aforesaid the cb ^ day of bihjbf.rS^\
. 2014.
:iT :

iiL'/'A—0

-1L

Registration Number:

■ =fr-

Notary Public

..J.v

k; •v.

i3 8'°n.3

My Commission Expires on:

—T-

•

•I',-

A- i.

i

]

AFFIDAVIT

c!r^e n AfreW L/on,rf!’ Jr- 1 r 34 years o!d and currently incarcerated m the Richmond
h!f , ' , n .uguf 6’ ‘-013’ 1 vvas V]Slted by.iAttomey Joe Morrissey who asked me if I knew
Cne
fh°r-?g-thatoccurTed on or about February 14, 2006 at the! intersection of St Paul
and
told him the mI™.0"1'' ‘
Mr MOrTiSSfy thal 1 did
the fects ™y well and I

;v
On February 14, 2006, 1 had just exited the Tiger Mart Convenience Store and was crossmp
on'sTPaul SheetA^iTT’' ! "TT" M0,TiSSey ‘ha‘'SaW Sylve.S,er Kington walking
, ■ aUl F.treet As 1 contmued walking towards Washington I saw a car drive ud Coe Street
and stoP m the middle of the road. At first, I did not think anything of-the car Then all of
sudden. I beard a loud voice yell a. the person who was in the phone booth' “So you 'thil that 1
am playing with you? Then that person started shooting at the person in the phone booth The
person rn the phone booth was Mr. Brown and he was killed by L gU, shote
1

As soon as the shooting took place, I ran and ducked behind some cars' on St Paul Street
male appro ™ateW 5“s-'tLn d"50”
T ^ ““ Sh00linS' H?
a b™wn-skinned
y .
311(3 very muscular weighing approximately 190-195 pounds The
.person who was shooting was using an assault rfle and fired approxihkely 8-9 shots
QW/t m rd kll £d and W-ashmgton was Wt ^ the cross-fire. (The only reason that 1 . Brown
was not
shot/killed was because 1 ran behind the cars on St. Paul Street).
I
I also remember that the shooter had on a light tee shirt and a low-styliWcut Whrle I do not
know the name of the person that did the shooting, I know that ,t w2 not He^y Wchtion
Henry Richardson ,s approximately 5’5”, 145 pounds, light-skinned wiih curly, bushy hair.
'»

3

t
I-have-not^pD-kenrio^enry”Richafdsbh
m over 7.years - a couple of wepks before the shooting.
Mr. Morrissey is the first person to ask me
9uestions about the shootingjin seven years.

I am currently incarcerated in the Richmond City Jail and have approximately 80 more days left

ssssasE

S’?!--*• -«
>
«
I - .
i

/

1

- I

Andrew Lee Granhfin

!

I
1

,Siyr>vA(j~r—xk

j

'i

. this

v

S-

c- •
dip' Cft_j

-

: . ••'5

1
l:

"dr_2TD
■

!

i

Reo. # 1

'

r

Affidavit of Natilia “Nikki” Johnson
I, Natilia “Nikki” Johnsoiij do swear and affirm that the following information is true and correct to the
best of my'knowledge.

1.
I, Natilia “Nikki” Johnson live at 1702 South Lawn Ave. Richmond, Virginia 23235. No
promise or agreement has been made in exchange for this statement, and I don’t.expect anything in the
future. I am willing to testify before any court if called upon concerning such matters as stated herein.
On February 14, 2006,1 was living at 204 West Coutts Street Apartment # D in Gilpin Court,
- 2.
Richmond, Virginia 23220. My telephone number was.804-562-4895.
I was sitting on my porch When I first saw a Silver Van coming down St. Paul Street. There
3.
were three individuals in the Van. I had never seen them before. The'Van went up the street, turned
around and came back. The Van stopped on Coutts and St. Paul Street; the person on the passenger side
got out and had a weapon in his hand. The Van sliding door opened and another guy got out and he
also had a weapon and they both started shooting.
•The description of the person who got out on the passenger side was brown skinned, with
4.
Comrows. The person who opened the Van sliding door had real dark skin. The both looked to be
aboiO’TO’Vbetween 140 tol'60'pounds. The~driverhufiTJomrows'alsorbut hemever gotout-of the---- Van. The all had on dark hoodies. After shooting stopped, the two guys, got back in.the Van and left.
.•
■

' When I looked' out at the street, Freeman Brown was lying in the street, he had been shot and I
5.:
called 911. Tsaw another individual lying by the telephone booth, he had been shot also.
I have heard of Henry Richardson aka ‘Tacker” but never been formally introduced to him. I ve
6.
seen him around and my memory of him is he is very light skinned. Neither one of the shooters were
fight skinned. They were much darker than Henry P. Richardson.
y

I lived next door to Jackie who was Freeman’s .girlfriend at that time. When the shooting was
7.
over I saw Jackie run over to Freeman Brown.
I called sometime before 11:21 p.m. to 911 and told the operator what I saw happen. I don’t
8.'
remember telling the operator that I didn’t wish to be seen:

9.
Since the 911 call, I have had no contact with police at all. No one has contacted me until Mr.
Alfred C. Brown came to ask me questions regarding this incident.
The Information and facts contained herein are true and correct.

STATE OF VIRGINIA: U
CTTY/COUNTY OF /C/

,to wit:

Sworn and subscribed before me in my jurisdiction aforesaid the
,2014.
My Commission Expires:
Reg#

() /

day of

Jo, ajbin
Notary Public

Detective Jeffrey Crewell________________________ _
Report #20060214-1206
; 911 Information
Collected from. Dispatcher Lloyd at 2-14-06 at 2321 hours

;.

Call#

Information .

I2U4

i wo mates snot, ho suspect iniormauon
Male caller doesn’t wish to be seen'

1205

1-5 shots heard, caller doesn’t wish to be seen

Number
WO->Ol«-

439-9390

1206

•Two people shot on comer, “drive by”
Female-caller named NIKI doesn’t wish to
Be seen

562-4895

1207

Several shots heard, nothing seen

523-3492

1208.

Two males m street,-male caller doesn’t wish
To be seen ,

397-4675-

1209

Shots heard, two bodies in street, female caller

938-2251

-2-^.1210___

■Person shot vehicle -might tinvp tnmftH ryn fr»

611-8876

Watsdii Street
•

1211

Two people shot, one possibly DOA
Female caller

1212

Two males shot, NFD.

1213

1214

Subject shot, several shots heard,
Male caller doesn’t wish to be seen
____ Shots. heard,-_one. male-in street^
Female caller doesn’t wish to be seen

. 622-3.838

237-2135

303-7629.

648-9807

r-.

K
i
I
■

;

5

i

P 24/28
201u-m

2:05

8042495512 »

3043795227

ELKHONON GOLDBERG, PH.D.

Clinical Professor of Neurology
New York University School of Medicine
Diplomate, American Board of Professional Psychology
American Board of Clinical Neuropsychology

affidavit

To: The Honorable Court
Please find enclosed an affidavit for Mr. Henry P. Richardson

The following records have been made available to me for review:
Medical College of Virginia Hospital treatment notes and reports pertaining to Sylvester
Washington (2/14/06-3/8/06)
Ridimond Police Department Reports (select) (2/14/06^2/15/06)
United states of America vs. Hem? Paul Richardson trial transcripts (606/06^27/06)
S hfr^Sylvester wS^^Zvled and Mr. Freeman Brown willed hfc
Wa^ington suffered five gunshot wounds to the left 145W and
necesXd amputation of his left leg above the knee and also mterfoed with his motions
in the left arm. Systolic blood pressure was reported 80 on hospital adtmssio^
Toxicology was positive for cocaine and opiates. Mr. Washington was reportedly
conscious on arrival but then slipped into coma and
Httle
Before lapsing into coma he was questioned by detective Joseph Fultz but pwidedhttle
informatioriand said be was in pain, repeating “Not now;
lapsed into cmnaron February IS andtemainedcoinaloaeunnlFditearyZl .2006. Htwaa
puton Methadone immediate upon canring out ofcoins.
IdentificariottofMr. Hcnry Rkhaidsoaas thc alleged papetr^m the shooting^
mTbvMr. Sylvester Washinrrtarr on oraboutFcbnwnyZr.2006ta Detective:David

315 Westr57tfr Street, Suite4QT New York^NY 10019- (212) 54-3 641Z-Pax(2l2) ?65~
E-Mail: egneurocog^aoLcont www.elfchwntiiigoldbag.ccmT

j01C 0*‘-1b u<::05

8042495512 >:>

3043795227

P25/28

Burt, who visited Mr. Washington in the hospital upon being advised that h* fowl
come oat of ooma~ reportedly the day after he came out of coma, ft is my lmA^nyi^g
that Mr. Washington was shown several photos, and that he began to nod when he saw
Mr. Richardson's photo, and that this was interpreted by Detective Burt as positive
identification. It is my undemanding that at about the time of this intoaetkm a note was
made in the patient's progress notes by a treating physician that he was “cextremely
paranoid”
Several issues of concern exist, leading one to question the validity ofthe presumed
perpetrator** identification by Mr. Washington. The first issue pertains to the possfinlify
ofretrograde amnesia, i.e. memory impairment farfoe events antedating the assanttlhe
second issue pertains to Mr. Washington's mental state at the time when be
foe
identification. The third issue pertains to die format oftbeidentificatum procedure itself
Thefourft issue pertains to Ac illicit substances Mr. Washington reportedly had taken
before the assault The fifth issue pertains to the medications Mr. Washington was on at
and aroond the time offoe identification. I will address these issues one by one.
Retrograde amnesia. Retrograde amnesia (RA) is a complete or partial loss ofmemories
pertammg to theeventspreceding the onset of brain dysfimetion. RA is characterized bv
a “temporal gradient" whereby memocy is most affected for tbs events relatively
promml to. and is less afBxted for tiie events farther mnoved bade in time fixnn, the
°“5_ofteam dysfimehon. RA may cover the time ipan ranging fiorn mirmtes to days,
weeks, or even motahs (1,2). Mr. Washington lapsed into a week-tag coma a day after
C^HDais
a *bnn ofbrain dysfunction, and a distinct possibility exists
mat RA developed m a result, impairing Mr. Washington's manory for foe events of the
indudi^ the idemity of foe^aart Acaarfing to tbe recanb,Mr. "
Washington <fid not rononber being given Methadone on admission even before coma.
TTta dandy suggests foe presence of RA, which could have also dooded Iris
recollections
about theeir
3s ofthe assault
The acranacy of Mr. Washington’s memories for the events in question is challenged by
^ncon^ra^es between his account and that of foe witnesses. He refaroi to a
J!??PJ!iinc Joncs rcfeired to a
^ Mr. Washington
churned tbrt foe assailant was Tight-skinned" but a witness claimed that the pcmricinthl
Furtb“nore’« «ands likeMr. Washingt^ZS^^.
aj®aftarit njay ftsvc he*® based on inference rather than on direct
recollection: it had to be “him" because he’s lighter than the rest of them.
^ 7b^“X

^ y°°- °^7- Mr. WBahmCinn^^.

becauseherfcltoractualfywaatiireateoettbatthefictremainedthathecmildnot

2

ioiu _ .

02:05

8042495512»

3043795227

P26/20

have been telling fee truth both times, since be contradicted bimadf and kept m»v-^np
mutually exclusive statements.
MeuM state at the tine of identification. The transition from coma to complete
lucidity « usually not instantaneous. The patient usually does not “snap out of ooma” and
refamis tocomplctc mental datity right away, ft is often a gradual process, whereby the
patient» anotml level is compromised for a period of time and only gradually runim* tr. compkt^nannalkvel (3). ft ia very probabte that barely a day after coming out of
coma,\fr. Washingtaii’s arousal level and overall cognition were still considerably
mqpmmd. Any recollections, «alemeot,ieaix»D8e> crdedMmadebyhfr. Washington's
idutottan^ as well as his ability to understand theindue ofhis interaction wig* the
Detective, must betaken with a considerable gram of salt While the Detectives'
eagerness to get critical infunnation as soon as possible is perfectly understandable, it can
be allied that toying to didtlhb information from a patio* bendy oat ofcoma wb a
mistake.
WMtungtMwas shgwpaacrksofphotio^nqfe wbacfanichxledthcphotoofhfr.
Rud^dsoa The whole *idenlificatiQjr|mx^aHKisted ofthe Mowing: hfr
vertwlstateroentby Mr- Washington and it it thus opt at aH dear that he grenpndcr*b«vi
tton^ofthcmqiraj.Inhi^^Hkrfy^codipramiaod.monalslffijthenod.M
vrcU gstbciapaturc, could easily have meant a mere acknowledgment of firr^rtty
ofstangem or of mdividuab less wdl known to
Whfle mtaprdmg-a nodas a sign ofidertificatkai iMy W be«mote
radwfcaU:fcexenodistooamhignousmacogiut^
ewnpru^mdividual whenone cannotcvm be certain in his abilityto felly
^of^e^actionaad ^of questionsasked. likewise, Mr.
no<y^vrfiat exactly he was attesting to with his signahim- Knlrm*
Mr. Xichaidsim to die assault or a mere fact of recognition of Mr. Richardses

3aassaaa:gg5y‘~>r-i^s=
&?as3e=aaa.isa!ia=
accuiatypfinai subsequentiecoJfection^anrf LWiw^.

3

k

2U

_ . S 02:06

8042495512>5

3043795227

P27/28

Medkatioas at the hwpttaL At various times upon his admutioo, Mr. Washington was
put on Methadone, Dflaudid, Oxycontin, and Morphine. Methadone is a synthetic opioid
binding to opioid receptors. Methadone also binds to NMDA reception, •which
it a
glutamate antagonist Methadone is known to produce cognitive nymptnnw mrhwKng
inipainnent ofmemory, derision making, impulse control, and of a wide raqge of other
cognitive functions, as wdl as visual and auditory halhicmations. Difamdid, Orymntin
and Morphine are analgesics acting on Ac opioid receptors. Among their side effects,
hallucinations, disorientation, and other cognitive changes are known to occur (II, 12,13,
14). Barely a day after craning out ofcoma, Mr. Washington’s cognition was KJcdy to
havebeen further compromised by these side effects, this casting further doubt on his
ability to comprehend the nature ofhis interaction with, the Detective, as well as on the
accuracy of his recollections and identification.
^__

CONCLUSIONS. The combination of the above factors—the possibility of retrograde
amnesia, the fikdifaood ofcompromised menial state at the time oftda^Bcatioa so soon
after coming ootofooma^lhe ambiguous nature ofdie format in which identificationswas
amductattbe likriy effect ofillicit drags at the time ofassault, and the likely effict of
medications atthe time of identification-make the validity and accuracy ofthe
pe-ipcUalar’s identification by Mr. Washington subject to
fell for
short of the “beyond reasonable doubt” criterion and standard.
Sincerely,

/I r / / /
/

Elkhonon Goldberg, PkD.
March 31,2010

SCOTT FCKVi'cSCf?
Notary f'ailic -5i--:c nr f^v York
No.

.'

•

Commiasuii
•

-«4 V ,

;• ,

.Vi
..iyv/ trgy ;o:^iy

o -c. ^

(O

j-;

*.rt

4

